17

CERTIFICATE OF SERVICE

The undersigned hereby certifies that on this 19th day of March, 2021, a true and correct
copy of the foregoing PETITION FOR REHEARING was served upon the following defendant
by Priority “Express” Mail:

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
' Washington, D.C. 20530-0001
(202) 479-3000

Larry Gomen, Pro Se
740 Woodruff Rd„ #1102
Greenville, South Carolina 29607
atpg-tech@charter.net

